              Digital Identity: Opportunities
                  for the Postal Service




                               May 29, 2012




Prepared by U.S. Postal Service Office of Inspector General
            Risk Analysis Research Center
            Report Number: RARC-WP-12-011
U.S. Postal Service Office of Inspector General                                                     May 29, 2012
Digital Identity: Opportunities for the Postal Service                                           RARC-WP-12-011



         Digital Identity: Opportunities for the Postal Service


                                         Executive Summary

As a highly trusted, venerable government institution with both a legal mandate to
protect privacy and the authority to protect users from fraud, 1 the U.S. Postal Service is
in a unique position to play a key part in a vital infrastructure for new digital identity
creation and authentication services. These new services would make transactions
requiring authentication of identity more convenient and secure than is possible with
today’s technologies. They would provide a foundation for new communications
applications with an inherently high level of privacy for users, the digital equivalent of
First-Class Mail® privacy protection.

Use of such services would be entirely voluntary, with clear, comprehensible, and
concise privacy guidelines. The Postal Service could facilitate and build on existing joint
public-private sector initiatives, which are currently hindered by the inability to tie a
user’s digital identity to a physical identity, such as a verifiable address. Although an in-
depth legal examination would be required to pursue such an authentication offering, a
previous U.S. Postal Service Office of Inspector General (OIG) Risk Analysis Research
Center (RARC) study suggests that current regulations pertaining to the Postal Service
are likely to permit such ventures. 2

Today’s digital identities are primarily limited to attributes (descriptions of
characteristics) provided by the end-user, which may be fact-based or fictional. This
makes them unfit for use with many applications that require authentication between a
digital identity and a real person, business, or entity. Further, some identity services
may expose sensitive information to identity providers in ways that the users are
unaware of and would not agree to if given the choice. This dissuades some potential
users; more importantly, weaknesses in digital identity authentication serve to
discourage or prohibit the introduction of some Internet services that otherwise could be
brought online, including some in the financial, health, and government sectors.

The current standard for digital identity — username and password — is inadequate for
providing appropriate security in many contexts. It is often compromised and leaves
users vulnerable to fraud. This has led to a fragmented system where users must keep
track of numerous password-username combinations and visit different websites to
navigate the Internet. This standard, although expedient, is not consumer-friendly and
was not designed with consumer ease of use in mind.


1
 Title 39 U.S. Code.
2
 U.S. Postal Service Office of Inspector General, Bridging the Digital Divide: Overcoming Regulatory and
Organizational Challenges, Report No. RARC-WP-12-004, November 22, 2011,
http://www.uspsoig.gov/foia_files/RARC-WP-12-004.pdf.


                                                         i
U.S. Postal Service Office of Inspector General                                                       May 29, 2012
Digital Identity: Opportunities for the Postal Service                                             RARC-WP-12-011


Single sign-on services, where one username and password combination can be used
on different websites through an intermediary (or “trusted third party”), are simpler and
growing in popularity but have significant limitations as currently applied. For example,
some large intermediaries, such as Google and Facebook, use their position to track
users’ Internet activities and develop behavioral profiles. Further, while the services may
authenticate a user’s profile, they may not be able to authenticate other attributes the
user ties to that profile — or indeed, prove that any of the attributes are real.

Some single sign-on solutions utilize OpenID, from the OpenID Foundation, a nonprofit
organization of individuals and companies committed to fostering OpenID technologies
that allow a single password managed by an “identity provider” with strong security.
While OpenID may ultimately develop and become a standard authentication tool, at
present, its technology leaves many users open to “phishing” 3 — where a user is
persuaded to log-in to a malicious website impersonating an official web page — and
other Internet fraud. And none of the options currently under consideration for OpenID
necessarily tie the user to real and verifiable attributes of identity, such as a physical
address.

In May 2012, the Federal Government’s Chief Information Officer unveiled a new Digital
Strategy emphasizing that government “must ensure confidentiality, integrity, and
availability by building security into digital government services.” 4 One obvious area for
building added security is the need for a trusted and neutral body to identify,
authenticate, and certify users in a straightforward manner that reduces sign-up friction
and maintains privacy. Currently, there are several formal initiatives outside of OpenID
to explore the use of digital identities by government agencies and to encourage an
interoperable standard for identity on the Internet. These include the National Strategy
for Trusted Identities in Cyberspace (NSTIC), a White House initiative with a mandate
“to improve the privacy, security, and convenience of sensitive online transactions.” 5
While the Postal Service is participating in some NSTIC discussions, it could play a far
more active role.

The Postal Service is in a strong position to help fill an important part of the digital
authentication gap. While the lifecycles of many Internet-related companies have been
unpredictable, the Postal Service offers an institutional permanence. It has a powerful
nationwide presence that is known for respecting and protecting individuals’ privacy.
The Postal Service’s significant tangible and intangible assets include its geographic
reach and nationwide addressing system databases, including its Address Management
System (AMS) and National Change of Address (NCOA) databases, which cover all
residences and businesses. Between its systems and its physical network of retail
locations and carrier services, the Postal Service has the right data, reach, and
customer relationships to verify the link between citizens and their digital identities,
making online transactions more secure. Such services could include in-person

3
  The risk of phishing is a problem shared by all of today’s commonly used identity solutions.
4                                    st
  Digital Government: Building a 21 Century Platform to Better Serve the American People, Office of Management
and Budget, http://www.whitehouse.gov/sites/default/files/omb/egov/digital-government/digital-government.html.
5
  National Strategy for Trusted Identities in Cyberspace, “About NSTIC,” http://www.nist.gov/nstic/about-nstic.html.



                                                          ii
U.S. Postal Service Office of Inspector General                                 May 29, 2012
Digital Identity: Opportunities for the Postal Service                       RARC-WP-12-011


authentication at Post Offices or by carriers, an extension of the current U.S. Passport
Service offering.

Authentication is foundational: as noted in previous work by the OIG, it is a needed
service and could provide the base of a digital platform with many applications. These
applications could be developed and offered either by the Postal Service alone or in
conjunction with other government agencies, nonprofit organizations, private
businesses, or a combination of these. Partnerships could provide an expedient way for
the Postal Service to become more involved in digital identity services, although care
must be taken to assure that any such offerings meet rigorous postal privacy guidelines.

The Postal Service is in a position to enhance an important part of the infrastructure for
online commerce by authenticating digital and physical identities. This will allow more
consumer-friendly applications involving sensitive information, thus facilitating new
eGovernment and eCommerce opportunities while securing important privacy
protections for all users.




                                                         iii
U.S. Postal Service Office of Inspector General                                                                     May 29, 2012
Digital Identity: Opportunities for the Postal Service                                                           RARC-WP-12-011


                                                  Table of Contents
Introduction ..................................................................................................................... 1

Background ..................................................................................................................... 2
          Identity, Authentication, and Attributes ................................................................. 2
          A Trust Framework and Its Components .............................................................. 3

Existing Digital Authentication Solutions ......................................................................... 4
          Passwords ............................................................................................................ 4
          Corporate Single Sign-On Services ...................................................................... 5
          OpenID ................................................................................................................. 6

Pilot Projects for a Digital Identity Ecosystem ................................................................. 7
          The National Strategy for Trusted Identities in Cyberspace
          Initiative ................................................................................................................ 8
          Open Identity Exchange ....................................................................................... 8
          International Posts and Secure Identity Across Borders Linked ........................... 9

Features of the Digital Identity Ecosystem ...................................................................... 9
          Verification of Real-World Attributes ..................................................................... 9
          Transparent Privacy Policies .............................................................................. 10
          Neutrality ............................................................................................................ 11
          Personal Choice ................................................................................................. 12

Opportunities for the Postal Service in Digital Identity ................................................... 12
          As a Trusted Third Party Online ......................................................................... 13
          As an Identity Provider ....................................................................................... 13
          Verifying Attributes Physically for Digital Identities ............................................. 14
          Identity Provisioning and Revocation.................................................................. 15
          Protecting Privacy and Security .......................................................................... 15
          Evolving Role in Authentication and Digital Identity Services ............................. 16
          Adoption and New Applications .......................................................................... 16
          Revenue Opportunities ....................................................................................... 17
          Implementation Considerations .......................................................................... 17

Conclusion .................................................................................................................... 21



                                                                  iv
U.S. Postal Service Office of Inspector General                                                      May 29, 2012
Digital Identity: Opportunities for the Postal Service                                            RARC-WP-12-011




                                                     Table

Table 1             Examples of Digital Identity Models in Europe..................................... 24


                                                   Figures

Figure 1            OpenID and Third Party Verification ...................................................... 7

Figure 2            The Postal Service as a Trusted Third Party ....................................... 13

Figure 3            The Postal Service as an Identity Provider .......................................... 14


                                               Appendices

Appendix A          A European Postal Perspective ........................................................... 23

Appendix B          Commonly Used Terms in Digital Identity............................................ 25

Appendix C          Levels of Authentication ...................................................................... 26




                                                         v
U.S. Postal Service Office of Inspector General                                                May 29, 2012
Digital Identity: Opportunities for the Postal Service                                      RARC-WP-12-011




        Digital Identity: Opportunities for the Postal Service


Introduction

How much certainty do we have about the identity of those we deal with on the Internet?
Shopping online, participating in an online discussion, or filing tax returns all require
different levels of certainty about the identity of the other parties involved. Many
“identity-centric services” (services that are heavily dependent on accurate and precise
identities) either are not offered or underutilized for two main reasons: (1) the difficulty in
verifying that a particular Internet user is who she claims she is; and (2) users’ fears of
identity theft or other fraud — whether factual or perceived — hinder adoption. In short,
today’s approaches to identity on the Internet leave much to be desired. Their limitations
are holding back potential business applications and may jeopardize users’ privacy.

In some industries such as banking and mobile phone service, the customer and the
organization have agreed upon pre-existing measures that can be used to verify that an
                                  Internet user is legitimate. Examples are personal
 Without solid pre-existing       identification numbers (PINs) and account numbers,
 authentication measures,         which have weaknesses. 6 Without solid pre-existing
 various services are not         digital identification tools and verification measures,
 able to move online safely       various services are not able to move online safely. In
                                  other cases, too many different entities are involved to
easily verify an individual’s identity or attributes. Examples of identity-centric tasks that
are difficult to implement with today’s identity technology include

       accessing healthcare information,
       managing legal documents,
       managing government services,
       state and local licensing,
       applying for scholarships,
       applying for loans,
       age-restricted transactions,
       utility account setup,
       opening certain financial accounts, and
       identifying trading partners.

Through its national addressing system for residences and businesses as well as its
vast network of retail locations, the U.S. Postal Service has the right data, reach, and
customer relationships to fill an important gap in the digital identity ecosystem, verifying
the link between citizens and their digital identities.
6
 Many users employ PIN numbers that are too short to be secure, passwords that involve common names or
personal details, or other passwords that can be easily guessed.


                                                         1
U.S. Postal Service Office of Inspector General                                                  May 29, 2012
Digital Identity: Opportunities for the Postal Service                                        RARC-WP-12-011


By enabling people to link their real-world identity to a digital identity, the Postal Service
could serve as vital infrastructure for creating new digital services and make identity-
centric transactions more convenient and secure. At the same time, the Postal Service
could serve to strengthen online privacy for digital identities.

By building on its long history of connecting the nation and its position as the most-
trusted government entity, 7 the Postal Service is in a unique position to protect
customer privacy with clear and binding privacy regulations similar to those
implemented for First-Class Mail.® The Postal Service could fill a critical gap in today’s
identity ecosystem: digital identity services with strong privacy protections suitable for
use with government services, e-commerce offerings, and other identity-centric
applications not possible with today’s technology.

Use of such services would be entirely voluntary; individuals must be able to determine
when and where to use their digital identities. People have multiple digital identities and
few individuals are likely to assign their real-world identity to all of them. It must be
recognized that the right of Internet users to remain anonymous for many interactions is
an important part of what drives digital innovation and change.

Currently, there are several formal initiatives to explore the use of digital identities by
government agencies and to encourage an interoperable standard for identity on the
Internet. If the Postal Service can act swiftly, it is in a position to create and enhance an
important part of the infrastructure for online commerce and eGovernment.


Background

Identity, Authentication, and Attributes

A digital identity refers to a collection of attributes related to a specific person or
organization. Most Internet users have several digital identities issued to them as they
sign up for email addresses, create accounts on websites, or access their office
computers from home. For example, when you register for a new account at an online
store, you create a new digital identity. You are asked to choose a password, so that in
the future you can prove that you control that identity. This process of verifying that you
control an identity is called authentication. When users enter their email address and
password to access an account on a website, they are authenticating that they control
that identity.

The details of your online identities are called attributes. Similar to a driver’s license,
revealing your digital identity to a third party discloses certain personal details. While
your driver’s license lists your name, address, age, and details about your physical
appearance, a digital identity used for eCommerce may include details like your email

7
 U.S. Postal Service, “Statement from Postmaster General Patrick Donahoe on the Fiscal Year 2013 Budget of the
U.S. Government,” February 13, 2012, http://about.usps.com/news/national-releases/2012/pr12_0213FYbudget.pdf,
and Ponemon Institute, “U.S. Postal Service Tops Ponemon Institute List of Most Trusted Federal Agencies,” June
30, 2010, http://www.ponemon.org/news-2/32.


                                                         2
U.S. Postal Service Office of Inspector General                                                   May 29, 2012
Digital Identity: Opportunities for the Postal Service                                         RARC-WP-12-011


address, name, phone number, and shipping address. If you have a digital identity, such
as an account with an online store, you may be able to place orders faster, find details
about your order history, and add items to a wish list, although not every eCommerce
website implements these features.

A Trust Framework and Its Components

Within the digital identity field, a trust framework is a certification program that enables
a party who accepts a digital identity credential to trust the identity, security, and privacy
policies of the party who issues the credential and vice versa. 8 It ensures that the user
can have confidence in all parties in a given identity ecosystem.

The organization that issues a digital identity is called an identity provider. In the case
of a driver’s license, the identity provider is the state government. In the case of an
email address, the identity provider is the company that hosts your email. The identity
provider is not always the only organization to rely on the attributes in that identity. Just
as there are many organizations that use your state-issued driver’s license to determine
your age, residence, or record your identity to deter fraud, other entities can rely on an
online identity created by a trusted third party.

Organizations that rely on an identity issued by another entity are called relying
parties. Several popular web services, including Facebook, Google, and Twitter,
encourage people to use identities that these services provide
for efficient authentication with other third-party services. Not      Today’s digital
incidentally, many such web services use these logins to gather        identities are
behavioral profiles. For example, you may use your Facebook            generally unfit for
account as your identity when participating in an online               use with services
discussion forum. In that case, the online discussion forum is a       that require a
relying party, because it is relying on an identity provided by        verified link
                                                                       between a digital
Facebook. Unlike a driver’s license, digital identities often allow
                                                                       identity and a real
the owner to control the specific attributes they reveal. For          person
example, when using a driver’s license to verify your state of
residence, you reveal information that may not be relevant, such
as your date of birth — a detail that is unrelated to the question of where you reside.
This information may not be needed for a transaction and therefore would not need to
be shared. 9

Today’s digital identities tend to be limited to attributes provided by the end-user,
making them generally unfit for use with services that require a verified link between a
digital identity and a real person. 10 Additionally, today’s identity services may expose

8
  Open Identity Exchange, “What is a Trust Framework,” 2010, http://openidentityexchange.org/what-is-a-trust-
framework.
9
  See Appendix B for a list of commonly used terms.
10
   Some users of high security applications are given physical tokens with dynamic codes to strengthen
authentication. Tokens are typically used in addition to passwords and PINs. A token must be held in the user’s
possession to assure security and allow digital access. Tokens are expensive, cumbersome, and often misplaced or
lost.


                                                         3
U.S. Postal Service Office of Inspector General                                                     May 29, 2012
Digital Identity: Opportunities for the Postal Service                                           RARC-WP-12-011


sensitive information to the identity providers in ways that the users are unaware of,
raising questions about the suitability of today’s services for use with financial, health,
and government services.

There is potential, however, for a digital identity solution to emerge that enables certain
sensitive, identity-dependent transactions to take place on the Internet with an
expectation of privacy and convenience. By creating a way for web services to
authenticate the real-world attributes of digital identities, the Postal Service could
reduce fraud, increase customers’ privacy, and expand the possibilities for new online
services.


Existing Digital Authentication Solutions

Passwords

Internet users are familiar with the username and password pattern that is the most
common method of managing Internet identities. When creating an account at a
website, users are often asked to enter their email address and choose a username and
a password.

Passwords and Fraud
Many users choose the same password across all of the websites that they visit; their
entire online identity can be revealed by hacking a single website. For example, in 2011
hackers made a serious breach into networks operated by Sony, exposing millions of
passwords that Sony left unencrypted. When comparing the passwords of users who
had accounts on both Sony’s services and other popular sites that were hacked,
researchers found that most users had reused their password across multiple
accounts. 11 In this case, users who had one password stolen now had all of their online
accounts at risk.

Passwords are frequently compromised via a technique called “phishing,” in which a
user is emailed a link to log-in to a malicious website that is impersonating an official
web page. The web page may request that the user enter their username and password
or other sensitive details. Instead of logging the user into the web service as they
expect, the malicious website captures the user’s details for further fraud.

Passwords are also easy for computers to guess. Researchers at Cambridge University
analyzed a sample of 70 million passwords with the cooperation of Yahoo!, and found
that around 1 percent of accounts had passwords easily guessed by a computer. 12
More sophisticated guessing techniques can yield even better results.


11
   Troy Hunt’s Blog, “A brief Sony password analysis,” June 6, 2011, http://www.troyhunt.com/2011/06/brief-sony-
password-analysis.html.
12
   Joseph Bonneau, “The Science of Guessing,” http://www.cl.cam.ac.uk/~jcb82/doc/B12-IEEESP-
analyzing_70M_anonymized_passwords.pdf.


                                                         4
U.S. Postal Service Office of Inspector General                                   May 29, 2012
Digital Identity: Opportunities for the Postal Service                         RARC-WP-12-011


Due to the difficulty of motivating users to choose secure passwords, rampant password
re-use by users, and the relative ease of phishing and hacking to compromise identities,
password-only account systems are a weak link in the digital identity ecosystem.

 The complexity of          For many less experienced Internet users, the complexity of
 managing fragmented        managing fragmented digital identities means a greater
 digital identities means   exposure to fraud. It is impossible to come up with a
 a greater exposure to      reliable estimate of the impact of fraud on the Internet in the
 fraud                      United States, as scams increasingly traverse different
                            communications media and borders. Some estimates of
annual worldwide Internet-related fraud run into tens, or even hundreds, of billions of
dollars.

Passwords and Identity
Username and password schemes can secure individual access to an online account,
but they can only ensure that the user has control of an online identity. Passwords, by
themselves, do nothing to authenticate that a given user is who or what they say that
they are. Another shortcoming of the username and password pattern is that users must
find a way to authenticate their identities for each individual service. Each banking
website, each government agency, and each medical provider may have a different way
of verifying that an online identity is controlled by a particular person. Fraud during this
verification process can expose even more of a user’s identity than a phishing scam.

The difficulty of making these processes easy to use, compounded with the risk of
fraud, has limited the feasibility of online services that require strict identity control.
While solutions exist to help technically inclined users overcome the burden of
controlling many multiple online identities, as discussed below, these solutions leave
large segments of the population with a greater exposure to fraud and diminish
opportunities to participate in the digital economy. Further, the fear of lack of privacy in
itself prevents some users from ever using even basic Internet commerce offerings.

Corporate Single Sign-On Services

In response to the shortcomings of password authentication, several large Internet
companies have designed identity services that are easier to use. Single sign-on
services allow a website owner to accept verification for an identity from a trusted third-
party. For example, users can sign in to the National Public Radio (NPR) website using
accounts from other websites including Facebook, Google, and Twitter. While single
sign-on services alleviate the need for users to remember many different passwords,
these services have their own shortcomings. Some of the companies issuing these
identities compile detailed behavioral profiles of their users by tracking user behavior
across the Internet. These profiles are used to tailor advertising to that individual based
on their activity across multiple websites. The use of today’s single sign-on services
could be suboptimal for web services with an expectation of privacy, including managing
government services and dealing with sensitive healthcare information.




                                                         5
U.S. Postal Service Office of Inspector General                                                 May 29, 2012
Digital Identity: Opportunities for the Postal Service                                       RARC-WP-12-011


Additionally — and very importantly — single sign-on identities do not verify specific
attributes or that users are who they say that they are. For example, you can create a
Facebook profile listing residence in a city other than the one where you live or under
any name that you choose. A single sign-on identity only verifies that a particular
Internet user controls the data in an account on a website, making today’s single sign-
on identities insufficient for trusted applications or those needing to deal with the
specifics of real-world identity.

OpenID

OpenID is a decentralized single sign-on solution, meaning it sets an interoperable
standard for organizations to share and issue identities. It was developed in 2005 as a
collaborative effort among leaders in the digital identity community. Currently, two
nonprofits are involved with OpenID: Open Identity Exchange provides certification for
identity providers and OpenID Foundation, manages the trademark and promotes the
OpenID standard. Both groups are supported by leading technology companies. 13

OpenID is a specification for creating identities that can work across multiple websites.
Any person or organization may create an identity, and web services that support
OpenID can accept those identities even when the identity was not originally created at
that site. Used by many single sign-on services, OpenID can help reduce the number of
different accounts a user must maintain across the web.

For example, users with an OpenID are able to log on to the          OpenID is a promising
NPR website with a process similar to that used for a single         approach to Internet
sign-on identity issued by a corporation. If the OpenID is           identity because it
issued by the user themselves or another party that does not         utilizes existing
track users’ activity across multiple websites, then the user        technology…but
retains a greater measure of privacy than those using a              cumbersome for the
single sign-on identity issued by a tracking and advertising         average Internet user
business. This means that OpenID technology may present
an opportunity for services that are identity-centric or deal with information more
sensitive than shopping and social networking.

OpenID is a promising approach to Internet identity. OpenID requires no additional
software other than the standard web browser, and OpenID itself utilizes other open-
source specifications for transferring data and authentication. This ease of adoption has
resulted in 9 million sites using the technology, with over 1 billion identities created
within the ecosystem. 14

The OpenID specification allows trusted third parties to verify attributes of a specific
identity (see Figure 1). For example, the Postal Service could act as a trusted third party
to verify the street address of a user and authenticate the user’s identity. When

13
  For example, both groups include board members from Google, Microsoft, PayPal, and Symantec.
14
  OpenID, “OpenID 2009 Year in Review,” December 16, 2009, http://openid.net/2009/12/16/openid-2009-year-in-
review/.


                                                         6
U.S. Postal Service Office of Inspector General                                                        May 29, 2012
Digital Identity: Opportunities for the Postal Service                                              RARC-WP-12-011


appropriate, the user could choose to reveal some real-world attributes of their identity
to do business online. Users have a choice of which attributes they would like to reveal,
perhaps only revealing their state of residence rather than their full street address. The
mechanisms for sharing attributes of an identity are designed to protect individual user
privacy and choice. They also help to protect the universe of users at large.
                               Figure 1: OpenID and Third Party Verification




                                                 USER




                         RELYING                                          IDENTITY
                         PARTNER                                          PROVIDER




                1.   User logs into Relying Partner’s website
                2.   Relying Partner contacts Identity Provider to authenticate the User
                3.   Identity Provider asks User to authorize using identity with Relying Partner
                4.   If/When User allows, Identity Provider sends credentials to the Relying
                     Partner and the User is logged into the website




OpenID remains cumbersome for the average Internet user. The process of creating
and using an OpenID is unfamiliar to most users. Also, under the current specification
for OpenID, creating an OpenID with a third party (instead of issuing one’s own ID) can
expose more information to the identity provider about a user’s behavior than an
average Internet user may realize.

While OpenID remains as vulnerable to phishing as other single sign-on systems, these
issues are likely to be overcome by improving its design. The OpenID Foundation
continues to update and evolve the specification in response to the experience of web
developers and feedback from the information security community.


Pilot Projects for a Digital Identity Ecosystem
Government agencies, other posts and the private sector are responding to the
shortfalls of today’s identity capabilities by forming organizations to develop and
advance interoperable standards for digital identity.



                                                         7
U.S. Postal Service Office of Inspector General                                                        May 29, 2012
Digital Identity: Opportunities for the Postal Service                                              RARC-WP-12-011


The National Strategy for Trusted Identities in Cyberspace Initiative

In May 2012, the Federal Government’s Chief Information Officer unveiled a new Digital
Strategy emphasizing that government “must ensure confidentiality, integrity, and
availability by building security into digital government services.” 15 Prior to this,
recognizing the need to establish a framework for trusted identities online, the White
House has issued an administrative mandate to establish an “identity ecosystem” that
gives both organizations and Internet users a greater degree of confidence in the
identities of those they do business with online. In a proposal released in February of
2012, the National Strategy for Trusted Identities in Cyberspace (NSTIC) created
federal support for a steering committee in a private sector-led effort to develop an
identity ecosystem, involving stakeholders from industry, federal and local government,
and privacy, civil liberties, and consumer advocacy organizations. 16

NSTIC has committed funding and other support to establish the steering committee
and undertake pilot projects to explore digital identity models; it envisions
implementation of a functioning identity ecosystem by 2016. 17 NSTIC aims to create a
norm in digital identity management whereby institutions and users are able to conduct
identity-related business online in a voluntary fashion, thus giving individuals control
over what private information is disclosed. NSTIC encourages interoperability and
government adoption of the resulting digital identity platform. In discussing and defining
potential authentication solutions, NSTIC and other organizations use the definition of
four levels of authentication assurance provided by the National Institute of Standards
and Technology (NIST); levels 1 and 2 are the most commonly employed. 18

Open Identity Exchange

Distinct from the OpenID Foundation, which manages the specification to implement
OpenID, the Open Identity Exchange is a certification listing service for open trust
frameworks. The Open Identity Exchange has developed a certification for identity
providers in conjunction with the General Services Administration (GSA). Certified
identity providers as of March of 2012 include Google, PayPal, Verisign, and Equifax. A
pilot program enables the National Institutes of Health (NIH) to accept OpenID
credentials from certified private-sector identity providers. 19


15                                   st
   Digital Government: Building a 21 Century Platform to Better Serve the American People, Office of Management
and Budget, http://www.whitehouse.gov/sites/default/files/omb/egov/digital-government/digital-government.html.
16
   National Institute of Standards and Technology, “Administration Releases Strategy to Protect Online Consumers
and Support Innovation and Fact Sheet on National Strategy for Trusted Identities in Cyberspace,” April, 15, 2011,
http://www.nist.gov/public_affairs/releases/whitehouse_nstic.cfm.
17
   John Fontana, “NSTIC doc outlines transition to privately led ID effort,” ZDNet Identity Matters, February 8, 2012,
http://www.zdnet.com/blog/identity/nstic-doc-outlines-transition-to-privately-led-id-effort/224?tag=search-results-
rivers;item0.
18
   For definitions of the four levels of authentication assurance, see Appendix C.
19
   Open Identity, “Open Identity Exchange Commences Open Government Pilot with National Institutes of Health,”
March 3, 2010, http://openidentityexchange.org/press-releases/nih-announces-oix-pilots-2010-03-03, and National
Institutes of Health, “Open Identity for Open Government at NIH,”
http://datacenter.cit.nih.gov/interface/interface245/open_gov.html.


                                                           8
U.S. Postal Service Office of Inspector General                                                        May 29, 2012
Digital Identity: Opportunities for the Postal Service                                              RARC-WP-12-011


International Posts and Secure Identity Across Borders Linked

In a recent survey of postal operators conducted by the Universal Postal Union, more
than a third of the 15 industrialized country respondents stated that they currently
provide digital identity services. Other postal operators, particularly in Europe and the
Arab region, continue to expand such offerings. 20

According to 2011 research from The Information Technology & Innovation Foundation,
16 European countries provide a digital identity for its citizens. 21 In Europe, the Secure
Identity Across Borders Linked (STORK) project aims to create reciprocal recognition of
digital identities provided by European nations. The project is made up of partner
entities from the public and private domains. It is funded in part by the European
Commission and encompasses several pilot projects currently in progress across the
continent, including international change-of-address services.

STORK creates a template for a platform to share identity data, while allowing the end
user to maintain control over what data is sent to what website. As the European Union
strives to strengthen consumer privacy protections, STORK’s platform aims to protect
privacy by transferring only the minimum data needed to create a transaction and
allowing individuals to completely delete all of their information from the system if they
choose. 22


Features of the Digital Identity Ecosystem
Today’s framework for digital identity addresses several problems successfully: the
need to verify the identity of websites themselves for transmitting secure information,
the existence of an open platform, and ever-improving tools to help users manage
multiple identities.

Several unaddressed needs remain; these gaps represent an opportunity for new
identity services. Solving these issues will expand the possibilities for digital services to
use identity information efficiently, saving costs, reducing fraud, and adding
convenience for individuals and organizations.

Verification of Real-World Attributes

In order to support an expectation of privacy and a need for strong identity, government
agencies, businesses, and citizens will require a way to authenticate the real-world
identity of an Internet user by verifying user attributes. Current verification procedures
are fragmented across organizations, creating inefficiencies and adding barriers to
20
   The UPU is also currently in the early stages of developing a postal identity standard. See Appendix A for an
overview of digital identity models used for the provision of eMailbox-type services.
21
   The Information Technology & Innovation Foundation, Explaining International IT Application Leadership:
Electronic Identification Systems, September 15, 2011, http://itif.org/publications/explaining-international-it-
application-leadership-electronic-identification-systems.
22
   STORK (Secure Identity across Borders Linked), “FAQs,”
www.eid-stork.eu/index.php?option=com_content&task=view&id=55&Itemid=76#stork_faq_5.


                                                          9
U.S. Postal Service Office of Inspector General                                    May 29, 2012
Digital Identity: Opportunities for the Postal Service                          RARC-WP-12-011


providing online services. For example, users may be required to have separate online
identities and accounts to manage the distribution of government benefits and to
securely access their healthcare information online. Each organization the user
communicates with adds another layer of complexity and another process for
verification.

                                    There are potential macroeconomic diseconomies
The standards for addressing
in the physical world have          without a reliable national digital identification and
acted as a catalyst for             address system online, even one that is optional for
communications and                  consumers. In the physical world, standards for
commerce. Similar                   addressing have acted as a catalyst for
infrastructures should exist        communications and commerce by making it simple for
in the digital world                businesses and individuals to locate and deliver
                                    information and goods to customers around much of
the world. Similar infrastructures should exist in the digital world as activities shift online.
Simplifying the process of verifying a user’s real-world identity online would expand the
possibilities for bringing government services into the digital world. By providing the user
with a digital identity that can be used for these kinds of services, agencies could more
easily offer their services online, and users could utilize those services effortlessly.

If citizens were able to use their verified identities for transactions outside of
government services, several positive trends might emerge. First, the more widely
usable an identity is, the less friction there is to widespread adoption. Secondly, the use
of verified real-world attributes is not a problem unique to government. Businesses
could build on the new opportunities created by a secure identity infrastructure, bringing
new services to market and strengthening existing ones. As digital identity security
increases, the cost of fraud to businesses will decline.

While there are pilot programs in progress to certify commercial single sign-on services
for government use, for-profit single sign-on services would be inappropriate for many
applications where there is an expectation of privacy. Current
pilot programs do not yet define a solution for identity verification Users can only
                                                                      make choices about
that operates at Internet scale. The programs explore use of
                                                                      privacy when their
single sign-on services with government services, but in a            options are clearly
limited environment where the identity of the user may be             presented
prescribed outside of the single sign-on service.

Transparent Privacy Policies

Users can only make choices about privacy when their options are clearly presented.
Most websites today feature a privacy policy, typically reached via a link at the bottom of
a web page. Users are often asked to agree to a website’s privacy policy before
creating their account. Yet this is unrealistic in practice, as typical privacy policies are
often long and complex. Researchers from Carnegie Mellon recently suggested that it




                                                         10
U.S. Postal Service Office of Inspector General                                                     May 29, 2012
Digital Identity: Opportunities for the Postal Service                                           RARC-WP-12-011


would take the average Internet user 76 workdays to read all of the privacy policies that
they encounter in a year. 23

Even if consumers reviewed the privacy policies they encounter, the Internet’s premier
identity providers lack a precedence of strong privacy protection. In 2011, Facebook
settled with the Federal Trade Commission over changes to their privacy policy that
shared users’ information and bypassed their privacy preferences. 24 And in March of
2012, the Federal Trade Commission began examining whether Google has
misrepresented its privacy practices to consumers. 25 Google has acknowledged that it
intentionally bypasses the privacy settings in the Safari web browser in order to track
users across the web. 26

In cases where users are accessing sensitive services online or revealing real-world
aspects of their identity, the implications of privacy choices must be made clear to users
and must be respected. Without a framework of trust and transparency between digital
identity providers and the users they service, today’s digital identity management
capabilities are inappropriate for use where there is a strong expectation of privacy.

Neutrality

Market forces can create additional conflicts for uses of these identities, including an
incentive for anticompetitive practices. The Internet is a neutral infrastructure; one that
does not select the winners or losers in the marketplace. By forcing users to choose
between for-profit identities in order to digitally engage with their government services,
users could be left with no options that protect their privacy. A neutral provider of
identity infrastructure would allow greater marketplace innovation and diminish the
incentive of identity providers to limit the interoperability of their identities.

                       As an example of these politics at play in the current marketplace,
Today’s economic       consider the criticism that today’s large-scale identity providers
incentives for         rarely accept identities authenticated by other providers. For
identity providers
                       example, you cannot log into Google’s services using an identity
stem from their
ability to track       other than one issued by Google, but Google encourages you to
users                  use your Google identity with other providers. Because today’s
                       economic incentives for identity providers stem from their ability to
track users, it does them little benefit to utilize identities provided by other organizations.
Placing those same limitations on one’s ability to access financial, government, or
health services would force the user to maintain a number of digital identities, which
would be detrimental to the user and promote inefficiencies.

23
   Aleecia M. Mcdonald and Lorri Faith Cranor, “The Cost of Reading Privacy Policies,” ACM Transactions on
Computer-Human Interactions, 0380 No. 3, http://www.mendeley.com/research/the-cost-of-reading-privacy-policies/#.
24
   Byron Acohido, “Facebook settles with FTC over deception charges,” USA Today, November 29, 2011,
http://www.usatoday.com/tech/news/story/2011-11-29/facebook-settles-with-ftc/51467448/1.
25
   Julia Angwin, “Google Faces New Privacy Probes,” Wall Street Journal, March 16, 2012,
http://online.wsj.com/article/SB10001424052702304692804577283821586827892.html.
26
   Jon Brodkin, “US, Europe investigate Google’s bypass of Safari privacy settings,” Ars Technica, March 16, 2012,
http://arstechnica.com/tech-policy/news/2012/03/us-europe-investigate-googles-bypass-of-safari-privacy-settings.ars.


                                                         11
U.S. Postal Service Office of Inspector General                                   May 29, 2012
Digital Identity: Opportunities for the Postal Service                         RARC-WP-12-011


Personal Choice

If users find it more convenient to use an identity issued by a for-profit identity provider,
and accept the possibility that sensitive information is likely to be tracked in data
compiled by the identity provider, then those users should be able to utilize any identity
service that they choose. It must remain up to the user to decide what organizations to
trust with their information.

Ideally, Internet users will have many options available to them. More possibilities for
online services would be created in an ecosystem where the users are able to choose
to employ multiple identities or remain anonymous, as they see fit. Perhaps many users
will choose one single identity, provided and verified by an entity that they trust. Some
users may use multiple identities: one for sensitive applications and another where
convenience is the primary concern.

Today’s advanced Internet users are able to partition their online identities in ways that
add an element of privacy protection. Other users are completely comfortable disclosing
their online activities in exchange for valuable services. And some users choose only to
participate in the online world anonymously. All of these options should be preserved in
the online identity ecosystem, even as more are presented that bolster the users’
privacy options.


Opportunities for the Postal Service in Digital Identity
The Postal Service has a long history of bringing together citizens, government, and
commerce. How people connect has changed significantly. The expanding digital
economy presents a challenge to bring these values to new environments. It also
presents a starting point for the development of new digital products and revenue
streams.

In entering the world of identity provisioning, the Postal Service will have to determine
the optimal level of authentication needed. While in-person application provides the
highest level of security, it also makes sign-up more difficult and expensive. There is an
inherent trade-off between the rigor of the authentication and customer convenience
that affects the rate of adoption. It may be best to adopt a multi-level authentication
protocol, allowing higher-level transactions only with a similar level of authentication,
while maintaining minimum levels of authentication for simpler transactions.

By taking the role of a trusted entity to verify attributes of identity, the Postal Service can
use key parts of its existing infrastructure 27 to create a valuable service. The service
would provide a strong link between real-world identities and digital identities, backed by
clear and strong privacy procedures, thus enabling government and businesses to
better meet the growing expectation for digitally accessible transactions. It would add
capabilities to the digital identity ecosystem at a time when these features are needed.

27
     This includes its current website, usps.com, and customer databases.


                                                          12
U.S. Postal Service Office of Inspector General                                                      May 29, 2012
Digital Identity: Opportunities for the Postal Service                                            RARC-WP-12-011


As a Trusted Third Party Online

The Postal Service could serve as a trusted third party for verifying an individual’s
location of residence with the individual’s permission. When using a verified identity
online, customers could choose what to reveal about their real-world identity in a given
transaction, with specificity ranging from street address to region, state, county, city, or
ZIP code. Through the U.S. National Change of Address (NCOA) system the Postal
Service could verify the past addresses of individuals and businesses. 28
                          Figure 2: The Postal Service as a Trusted Third Party




                                                                                 IDENTITY
                  USER                                                           PROVIDER




                   1. User requests a digital identity from Identity Provider
                   2. Identity Provider creates a verification request with the Postal Service
                   3. The Postal Service verifies the identity of the User either in-person or using
                      change of address data
                   4. As a Trusted Third Party, the Postal Service provides verification of the
                      User’s physical identity for the Identity Provider




Utilizing OpenID’s protocols for attribute exchange, the Postal Service could verify these
attributes for organizations that act as digital identity providers. After successful
verification, identity providers would allow customers to reveal the attributes to relying
parties.

As an Identity Provider

In addition to verifying attributes of identities issued by other organizations, the Postal
Service could act as an identity provider itself. The Postal Service could directly verify
attributes of individuals and organizations online. Digital identities issued by the Postal
Service could operate according to the OpenID standard and work within the existing
identity ecosystem. Customers could use their identities for all of their online
transactions, or use their identity only for transactions that handle sensitive information.

28
  Currently, data in the NCOA system is stored for four years. For more information on the NCOA, see U.S. Postal
Service Office of Inspector General, eMailbox and eLockbox: Opportunities for the Postal Service, Report No.
RARC-WP-12-003, November 14, 2011, http://www.uspsoig.gov/foia_files/RARC-WP-12-003.pdf.


                                                         13
U.S. Postal Service Office of Inspector General                                                 May 29, 2012
Digital Identity: Opportunities for the Postal Service                                       RARC-WP-12-011


At the request of a customer, the Postal Service could share the customer’s verified
location and identity details with relying parties, such as retailers or service providers.

The digital identity could also traverse back into the physical world as an identifier for a
number of different access tools. For example, it could serve as the core identifier on a
postal-centric smart card that would not only provide access to postal services, but
provide digital authentication and serve as a platform for other government and
commercial entities to offer additional services. 29
                          Figure 3: The Postal Service as an Identity Provider




                                               USER




                    RELYING
                    PARTNER




           1.   User logs into Relying Partner’s website
           2.   Relying Partner contacts the Postal Service to authenticate the User
           3.   The Postal Service asks User to authorize using identity with Relying Partner
           4.   If/When User allows, the Postal Service sends credentials to the Relying
                Partner and the User is logged into the website



Verifying Attributes Physically for Digital Identities

The Postal Service can verify the mailing address of individuals or organizations several
ways. With a nationwide network of locations and postal carriers reaching every door,
the Postal Service could provide in-person verification or verification-by-mail services.
The Postal Service already provides such services for the processing of passports,
having collected 5.6 million passport applications in 2011 alone. 30 With permission from
an individual, the Postal Service could verify a specific individual’s control over an online

29
   U.S. Postal Service Office of Inspector General, The USPS Global Card: A Conceptual Analysis of a Smart Card
Platform, Report No. RARC-WP-12-006, February 13, 2012, http://www.uspsoig.gov/foia_files/RARC-WP-12-006.pdf.
30
   U.S. Postal Service, “Postal Facts,” http://about.usps.com/who-we-are/postal-facts/welcome.htm.



                                                         14
U.S. Postal Service Office of Inspector General                                                   May 29, 2012
Digital Identity: Opportunities for the Postal Service                                         RARC-WP-12-011


identity by matching an address and incoming mail, and checking physical identification.
The NCOA system, in addition to helping people receive their mail at new locations,
could provide accurate and up-to-date verification of an address. 31

Many existing processes for verifying addresses utilize the Postal Service. For example,
some businesses will mail a postcard with a unique code to an address they are
attempting to verify. The resident will enter the unique code onto a website to prove they
reside at that address. While repeating this process for multiple services is not optimal,
this use of the postal system demonstrates businesses’ reliance on current postal
services.

Identity Provisioning and Revocation

The Postal Service’s existing “brick and mortar” locations are a major advantage for
identity services. In order to provide a new digital identity for a customer, physical
verification of their mailing address would be required. 32 By offering these services in-
person at a retail location or with verification by their letter carrier, customers could work
with an organization they trust to keep their information updated and secure. The Postal
Service reaches every residence and business in the United States.

One responsibility of an identity provider is revoking compromised identities. If
customers lose control of their identities, they must notify identity providers to prevent
unauthorized use of the identity online. Even the revocation process can be a target for
fraud online.

Protecting Privacy and Security

Backed by the Privacy Act of 1974 and the legal protection of First-Class Mail, the
Postal Service has a long-established history of clear, direct, and effective privacy
practices with legal standing. This history means that the Postal Service is in a unique
position to provide identity services built on a foundation of privacy and trust, an aspect
of digital identity left unaddressed by today’s identity
                                                              The Postal Service is in a
providers. Verification of identity attributes and identity   unique position to
services can be delivered in a way that protects the          provide identity services
individual’s privacy. Being bound by mail privacy laws,       and to fight against fraud
the Postal Service could fill critical gaps in the identity
ecosystem and provide a clear, concise privacy statement that prevents the Postal
Service from sharing any information with any parties other than those customers
choose.

The Postal Service also has unique strengths in the fight against fraud. The Postal
Service offers protection under federal law through two law enforcement organizations:
the Office of Inspector General and the Postal Inspection Service. These law

31
   U.S. Postal Service Office of Inspector General, The USPS Global Card: A Conceptual Analysis of a Smart Card
Platform, http://www.uspsoig.gov/foia_files/RARC-WP-12-006.pdf.
32
   The Postal Service already verifies addresses for mailers through a number of address hygiene services.


                                                         15
U.S. Postal Service Office of Inspector General                                May 29, 2012
Digital Identity: Opportunities for the Postal Service                      RARC-WP-12-011


enforcement organizations currently investigate crimes that include using a false identity
and fraud. The reach and experience of these two organizations serve as a valuable
tool for the enforcement of customers’ privacy and security — a tool that could readily
be adapted to fulfill a wider role in the digital sphere.

Evolving Role in Authentication and Digital Identity Services

The Postal Service has experience both in providing physical authentication services for
federal agencies such as the Department of State’s Office of Passport Services and in
providing such services for its own products, ranging from Change of Address requests
to registration for the new gopost™ parcel lockers. In the digital world, the Postal
Service has also amassed experience in providing secure online storage of personal
information, including the encryption used to manage the AMS and NCOA databases as
well as the administration of the Click-N-Ship® postage program.

This experience, along with a reputation for trust, brings the organization the necessary
credibility to engage in this arena. As the framework for an online identity ecosystem
evolves, the Postal Service has begun to engage with key players from government and
industry. Whether as an active participant with industry and government representatives
developing the NSTIC framework, as a potential partner to participants in the NSTIC
and OpenID pilot programs, or working with federal government agencies to develop a
single sign-on across the .gov domain, the Postal Service has been and must continue
to be engaged as an identity framework rolls out over the coming years.

The need for a Postal Service role in federal online identity management is significant.
In this era of limited resources, federal agencies are reducing their physical footprints
and seeking ways to reduce costs. Simultaneously, the same agencies are seeking to
reach Americans through innovative eGovernment programs requiring identity and
attribute authentication. Whether vetting identification for the Department of Agriculture
or verifying physicians in the roll-out of the Center for Medicare and Medicaid Services’
ePrescribe Program, such programs provide an obvious role for the Postal Service.

Adoption and New Applications

If the Postal Service were able to provide Internet users with the ability to share
information about their real-world identity through their physical identity, innovators
would set to work finding profitable applications for this information. Each expansion of
capability available to entrepreneurs is followed by a wave of start-up businesses
exploring new potential concepts. For example, when a user’s current physical location
became available to websites through smartphones, new businesses emerged to utilize
that data. Participants in the digital economy ultimately decide the fate of these new
ventures.

One possible application using the Postal Service’s authentication services is Peer-to-
Peer Escrow. As background, the Internet has enabled an expansion of peer-to-peer
commerce. Websites such as eBay and Craigslist make it easy for individuals to
connect with people in their community or even internationally for the purpose of trade;


                                                         16
U.S. Postal Service Office of Inspector General                                                  May 29, 2012
Digital Identity: Opportunities for the Postal Service                                        RARC-WP-12-011


bartering; or selling used goods, crafts, and services. This expanded economy has
provided new ways for criminals to defraud citizens in possibly receiving counterfeit
goods, or on the other side, in possibly receiving counterfeit payment.

If both the buyer and the seller were able to register their identities digitally with a
service that facilitated payment for the transaction (or “escrow service”), they would be
able to lower their fraud risk. By using their digital identities, authenticated by the Postal
Service, the buyer and the seller could reveal their information only to the trusted third
party. This would deter fraud, better enable law enforcement to address a growing
problem, and provide a legitimate sense of security and privacy to the buyer and the
seller.

This hybrid of digital identity verification and escrow is a theoretical service that
illustrates the potential for the use of authenticated digital identities in the Internet
economy. By creating digital identities that interoperate with the open standards on the
web, the Postal Service could enable new businesses to emerge, as well as help
existing organizations to be more secure, efficient, and convenient for their customers.

Revenue Opportunities

Digital identity services provide several revenue opportunities for the Postal Service. For
example, when working as a trusted third party to verify limited attributes of existing
identities, the Postal Service could charge either a value-based per-use fee or an
annual access fee to the identity providers for which the Postal Service verifies
attributes.

For services with a high expectation of privacy, identities issued by the Postal Service
may be ideal. When functioning as an identity provider, the Postal Service could charge
organizations that rely on Postal Service-verified attributes to complete commercial
transactions.

Automated billing of per-use fees is a common revenue model for open Internet
platforms. For example, Google Maps allows businesses to utilize its data for
commercial purposes. The first 25,000 requests in a day are free. After that, businesses
pay $4 for each additional 1,000 requests. A more liberal license is available for large-
scale users, which includes technical support and availability agreements, starting at
$10,000 annually. 33

Implementation Considerations

Integration with Existing Identity Ecosystem
The existing identity ecosystem is large. Billions of these identities exist on the Internet
today, and they are a critical part of the digital economy. To fill the gaps in service


33
  “Google puts a limit on Free Google Maps API: over 25,000 daily and you pay,” The Guardian, Technology Blog,
October 27, 2011, http://www.guardian.co.uk/technology/blog/2011/oct/27/google-maps-api-charging.


                                                         17
U.S. Postal Service Office of Inspector General                                        May 29, 2012
Digital Identity: Opportunities for the Postal Service                              RARC-WP-12-011


outlined in this paper, the Postal Service should implement its identity services in a way
that interoperates with the existing identity ecosystem.

                                         Although still under development, OpenID
Over time, OpenID may                    demonstrates the power of an open platform and the
develop into a platform on               ability for the specification to evolve and meet new
which to build a strong,
                                         challenges. Over time, security will increase, usability
identity service with a focus
on user privacy
                                         will improve, and OpenID may develop into a platform
                                         on which to build a strong, privacy-centric identity
                                         service.

The NSTIC and Open Identity Exchange initiatives both aim to increase the adoption of
this technology within government. By working with these organizations, the Postal
Service could develop a revenue stream in providing identity services to other
government agencies, the healthcare industry, and other entities with which individuals
share their identity profile.

User-centric Privacy
The potential for abuse of privacy is a valid concern for any identity service. Although
the Postal Service has a longstanding tradition of keeping individual information private,
some of its revenue models based in the physical world will not translate to the digital.
A strong commitment to privacy can be displayed if the default settings of the service
are to maintain the strict confidentiality of customers’ information. Adoption will be stifled
if users believe that keeping their information current will result in increased amounts of
unwanted physical or digital communication from advertisers.

Any information-sharing should only be under circumstances where users opt in and
have granular controls over what attributes are shared and with whom. If serving as an
identity provider, the Postal Service should not store any information about the specific
websites a customer authenticates with. In order to keep user privacy paramount, no
behavioral information should be logged or stored.

A Building Block for Web Services
Beginning in 2011, The U.S. Postal Service Office of Inspector General (OIG) Risk
Analysis Research Center (RARC) began publishing a series of white papers that
explore a positioning for the Postal Service in the digital economy. For each opportunity
defined in the series, including eMailbox and eLockbox services, digital identity services
may be part of the foundation.

While building an interoperable identity service is a much larger undertaking than
creating a username and password authentication system, it may be a requirement of
moving the Postal Service further into the digital age. The Postal Service currently offers
accounts online for both individuals and mailing organizations. Improving the
interoperability of accounts within existing Postal Service products could be a logical
first step towards building an expanded identification service.




                                                         18
U.S. Postal Service Office of Inspector General                                    May 29, 2012
Digital Identity: Opportunities for the Postal Service                          RARC-WP-12-011


A Platform for New Applications
Part of the potential for the Postal Service in offering digital identity services is the
organization’s ability to create a platform in addition to a simple digital identity service
offering. While customers can utilize a service for a specific use, a platform would
enable new products and services to be created, enabled by the core technology of
verifying real-world attributes of digital identities.

Technology — Cost and Internal Capabilities
Establishing an interoperable identity service is not a one-time investment. In addition to
customer service, verification services, and revocation and security responsibilities, the
technology that serves as a foundation to digital identity will continue to improve.
Services built on this technology will adapt as well.

Today’s open identity ecosystem, largely driven by OpenID technology, is an evolving
standard. The OpenID Foundation improves the specification on a regular basis,
responding to the challenges presented by real-world
implementation. This process of adaptation is an open         Partnering with
one. If the Postal Service becomes a stakeholder with a       outside organizations
long-term investment in this technology, participating in the could provide a
creation of new versions of the OpenID standard is an         shortcut …but is
important step in strengthening the digital identity          unlikely to provide
ecosystem.                                                    privacy benefits

How the Postal Service could best develop this technology and participate in its
evolution is open to further exploration. Partnering with outside organizations could
provide a shortcut to development, but the rebranding of existing identity technology in
itself is highly unlikely to provide the privacy benefits required to make a strong impact
in today’s market.

Liability
A digital identity solution used to manage valuable information is a target for fraud.
Criminals attempt to access information that can be used for identity theft by taking
control of a user’s online identity, either through exploiting security deficiencies or
tricking users into giving away control.

New identity services should be supplemented with a legal review of the liability created
by providing these services. If a customer’s information is compromised and a
fraudulent transaction completed, what protections are in place for the customer, the
relying party, a trusted third party, and the identity provider? New protections or
limitations for the use of identity services may be necessary as conditions of using
identities provided or verified by this system.

Currently, no comprehensive federal law or regulation covers the security of sensitive
personal information by the federal sector or related liability in the event of breach or
fraud. Instead, a web of federal laws, regulations, and guidance apply, reflecting a



                                                         19
U.S. Postal Service Office of Inspector General                                                      May 29, 2012
Digital Identity: Opportunities for the Postal Service                                            RARC-WP-12-011


“sectoral approach” to the protection of personal information. 34 Major legislation passed
by Congress in areas such as financial services, health care, and the Internet, has
created a framework with multiple organizations maintaining enforcement authority,
ranging from the Veterans Administration to the Federal Trade Commission to the new
Consumer Financial Protection Bureau. This web of statutes presents a challenge, but
should not prohibit or discourage the Postal Service from further engagement.

As the Postal Service considers partnering with federal and even state and local
government agencies, it must evaluate and develop sensible liability provisions that
spread responsibility among accountable parties and minimize risk. As a self-insured
entity, the Postal Service has elected to pay for losses itself rather than purchasing
insurance in the private market. This policy should be reviewed, together with an
examination of examining new digital identity and attribute authentication services and
how risks could be shared with other agencies.

Regulatory Issues

Before even planning digital services, the Postal Service should consider whether the
product would be allowed under current postal regulations. By law, the Postal Service is
restricted to offering “postal services” or specifically grandfathered “nonpostal services.”
Current law, however, grants significant leeway to the Postal Service in providing
services to other parts of the federal government.

In 2011, the Office of Inspector General engaged a leading regulatory expert to conduct
an extensive analysis of the current regulatory
environment. She concluded that current regulations,        The Postal Service is on the
particularly in the provision of eGovernment services, do   brink of missing a critical
provide a legal path for the Postal Service to offer a      opportunity to find its own
                                                            role in the digital economy
number of digital services. Many new products that
                                                            and shape the future of
bridge the gap between the physical and digital worlds,     identity on the Internet
such as those in this paper, may be characterized as
complements or digital versions of existing postal
products. 35

Further, one could argue that offering digital identity services not only helps to bridge
the gap between the physical and digital worlds, but also plays a vital supporting role in
in continuing to bind the nation together. As the digital revolution continues to rage,
providing such services across the nation reflects a modern interpretation of the Postal
Service’s Universal Service Obligation in providing a secure and trusted channel for
communications and commerce.



34
   U.S. Congressional Research Service, Federal Information Security and Data Breach Notification Gina
Stevens,January 28, 2010, http://www.fas.org/sgp/crs/secrecy/RL34120.pdf, p. 1.
35
   U.S. Postal Service Office of Inspector General, Bridging the Digital Divide: Overcoming Regulatory and
Organizational Challenges, Report No. RARC-WP-12-004, November 22, 2011,
http://www.uspsoig.gov/foia_files/RARC-WP-12-004.pdf.


                                                         20
U.S. Postal Service Office of Inspector General                                  May 29, 2012
Digital Identity: Opportunities for the Postal Service                        RARC-WP-12-011


Conclusion
With pilot programs already in place through NSTIC and OIX, the Postal Service is on
the brink of missing a critical opportunity to find its role in the digital economy and shape
the future of identity on the Internet. While technology leaders in both the public and
private sectors have yet to develop and agree on common standards and protocols,
they are progressing and could begin testing even an imperfect prototype. The Postal
Service needs to take an active role in order to keep pace with an evolving industry, an
industry that will dramatically expand once more rigorous identity authentication is
available for highly sensitive offerings. Any potential offering from the Postal Service
should include appropriate and enforceable privacy safeguards to allow the further
growth of both eCommerce and new communications applications and enhancements.




                                                         21
U.S. Postal Service Office of Inspector General                  May 29, 2012
Digital Identity: Opportunities for the Postal Service        RARC-WP-12-011




                                             Appendices




                                                         22
U.S. Postal Service Office of Inspector General                                 May 29, 2012
Digital Identity: Opportunities for the Postal Service                       RARC-WP-12-011




Appendix A                A European Postal Perspective

Key Issues and Outlook

For European posts, authentication is at the heart of the development for eMailboxes
and other digital applications, including eGovernment and hybrid (digital-physical) mail
options. There is a wide divergence between the authentication systems in use. Final
design drivers are based on local circumstances and legislation around eSignatures. If
third party identities are valid and useable, they should be considered as an alternative
or complement to in-house processes. For example, four Nordic countries leverage the
authenticated identities used in the banking system.

       Finland’s protocol is the simplest, with users continuing to use their banking ID as
        a user name or choosing a new username and password.

       Denmark uses the banking identity initially and then changes it to a higher level
        of authentication.

Switzerland operates two systems: one is fairly straightforward, and the other is unique,
where users hold a hard certificate in a token (USB stick).

Market Directions

There is increasing discussion on providing differentiated levels of authentication and
credentials based on the level of services accessed. Thus, light authentication could be
used for simple eMailbox access, with more rigorous authentication if payment or
access to eGovernment services is part of the transaction.

Authentication for eMailboxes and other applications is likely to remain tied to banking
applications where possible. OpenID standards are not likely to be adopted unless they
are accepted and used by the banking sector.

There is growing interest in using mobile phones as a delivery channel. In addition,
European posts are reviewing bio-metric authentication methods. These are currently
not proven or used techniques for digital identity authentication.

See Table 1 for detailed information on how authentication is handled by five European
posts.




                                                         23
U.S. Postal Service Office of Inspector General                                                      May 29, 2012
Digital Identity: Opportunities for the Postal Service                                            RARC-WP-12-011

                         Table 1: Examples of Digital Identity Models in Europe*

Postal              Name of
                                    Overview                                            Verification Method
Operator            Service
Post Nord           eBoks           Authentication utilizes banking ID, legal      Online via banking
(Denmark)                           address, and social security number. User      information.
                                    name is social security number with self-
                                    selected password. One-time scratch code
                                    card is delivered to home phyiscal address for
                                    multi-factor process.

Itella Post         NetPosti     Two ways to register: through bank identity Online via bank process,
(Finland)                        or national chip card. Also can register at Post utilizing social security
                                 Office.                                          number or in-person
                                                                                  with issuance of one-
                                                                                  time password.
Deutsche Post EPostBrief         Uses Deutsche Post's own "Postident" on-line In-person, validated
(Germany)                        certification process.                           against Government
                                                                                  databases.
Poste Italiane      Poste        Uses Poste Italiane's own on-line certification In-person, validated
(Italy)             mailbox      process.                                         against government tax
                                                                                  codes and social
                                                                                  security number.
Swiss Post          Swiss Sign   Online registration and validation against       In-person.
(Switzerland)                    national data bases. Creates legal Public Key
                                 Infrastructure-based electronic certificate for
                                 digital signature. Certificate offered in
                                 computer neutral USB token which
                                 authenticates digital signature and allows
                                 remote application management and
                                 upgrading.
*Digital identity processes used for eMailbox registration

Source: Strategia Group and decision/analysis partners, in cooperation with the U.S. Postal Service Office
of Inspector General, 2012




                                                         24
U.S. Postal Service Office of Inspector General                                                      May 29, 2012
Digital Identity: Opportunities for the Postal Service                                            RARC-WP-12-011




Appendix B                Commonly Used Terms

Term                      Description

AMS                       The U.S. Postal Service’s Address Management System, which is a
                          proprietary database of all addresses and addresses in the U.S.
Attributes                Descriptions of characteristics; details or components of online identities.
Authentication            The process of establishing confidence in the identity of users or
                          information systems.
Digital Identity          Collection of attributes related to a specific person or organization within
                          a given context, either fact-based or fictional.
Identity Ecosystem        A set of technologies, policies, and agreed upon standards that securely
                          support communications and transactions. Key attributes of the Identity
                          Ecosystem include privacy, convenience, efficiency, ease-of-use,
                          security, confidence, innovation, and choice.
Identity Provider         An organization that issues a digital identity.
Intermediary              Same as Trusted Third Party. See below.
NCOA                      The U.S. Postal Service’s National Change of Address System is a
                          registry of addresses for individuals, businesses and organizations who
                          have moved or changed addresses in the U.S.
NSTIC                     National Strategy for Trusted Identities in Cyberspace, a White House
                          initiative to develop a more secure identity ecosystem, involving public,
                          private, and nonprofit organizations.
OpenID                    A decentralized single sign-on solution initially developed in 2005 and
                          under continuous revision. Open ID technology has protocols for attribute
                          exchange among digital entities and uses standard software.
Phishing                  An attack in which the user is lured and tricked (usually through an e-
                          mail) into interacting with a counterfeit Verifier or Relying Party and
                          revealing attributes of user identity.
Relying Parties           Organizations that rely on an identity issued by another entity.
Single Sign-On            An authentication process that allows a user to enter one name and
                          password to access multiple online applications from different
                          organizations.
Token                     A physical object used to access digital information by an authorized
                          user.
Trust Framework           Certification program enabling a party who accepts a digital identity
                          credential to trust the identity, security, and privacy policies of the party
                          issuing the credential and vice versa.
Trusted Third Party       An entity that authenticates user identity (through verification of attributes)
                          and that is not otherwise participating in the communication or
                          transaction.
Verification              The process of establishing confidence in attributes of users or
                          information systems.

Sources:   U.S. Postal Service Office of Inspector General Risk Analysis Research Center (RARC), National
           Institute of Standards and Technology (NIST), National Strategy for Trusted Identities in Cyberspace
           (NSTIC).




                                                         25
U.S. Postal Service Office of Inspector General                                                       May 29, 2012
Digital Identity: Opportunities for the Postal Service                                             RARC-WP-12-011



Appendix C                 Levels of Authentication

Following are excerpts from the requirements for each of the four levels of
authentication assurance as defined by the National Institute of Standards and
Technology (NIST): 36

         …the party to be authenticated is called a Claimant and the party verifying
         that identity is called a Verifier. When a Claimant successfully
         demonstrates possession and control of a token to a Verifier through an
         authentication protocol, the Verifier can verify that the Claimant is the
         Subscriber named in the corresponding credential. The Verifier passes on
         an assertion about the identity of the Subscriber to the Relying Party. 37

Levels 1 and 2 provide the lightest authentication, which may involve pseudonyms
(false names). In most cases, only verified names may be specified in credentials and
assertions at Levels 3 and 4:

Level 1
Although there is no identity proofing at this level, the authentication mechanism
provides some assurance that the same Claimant who participated in previous
transactions is accessing the protected transaction or data. Since identity proofing is not
required, names and credentials and assertions are assumed to be pseudonyms.

Level 2
Level 2 provides single factor remote network authentication. At Level 2, identity
proofing requirements are introduced, requiring presentation of identifying materials or
information, although the credential may assert a pseudonym. A wide range of available
authentication technologies can be employed.

Level 3
Level 3 provides multi-factor remote network authentication. At least two authentication
factors are required. At this level, identity proofing procedures require verification of
identifying materials and information.

Level 4
Level 4 is intended to provide the highest practical remote network authentication
assurance. Level 4 is based on proof of a possession of a key through a cryptographic
protocol. At this level, in-person identity proofing is required.




36
   National Institute of Standards and Technology, Electronic Authentication Guideline: Information Security, Special
Publication 800-63-12011, December, 2011, http://csrc.nist.gov/publications/nistpubs/800-63-1/SP-800-63-1.pdf.
37
   Ibid., p. 17.


                                                          26
